Appellate Justice Initiative

at McGuireWoods
ee E LLATE Gateway Plaza
anes iar see

INITIATIVE T: +1 804 775 1000

F: +1 804 775 1061
aji@mcguirewoods.com

June 30, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re: Alston Campbell, Jr. v. United States
No. 20-1790

Dear Mr. Harris,

This letter confirms petitioner’s consent to the filing of any and all amicus
briefs in support of certiorari.

Thank you very much for your time and assistance in this matter.

Very truly yours,

Cid

Gregory J. DuBoff
Counsel for Petitioner

cc: All Counsel
